<html>
<title> - MORNING DISCUSSION: ROUNDTABLE ON MINORITIES IN FRANCE</title>
<body><pre>[Joint House and Senate Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



111th Congress                                 Printed for the use of the
2d Session               Commission on Security and Cooperation in Europe
_________________________________________________________________________

 
       MORNING DISCUSSION: ROUNDTABLE ON MINORITIES IN FRANCE





           [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                    SEPTEMBER 15, 2010


                    
                    
                    Briefing of the

      Commission on Security and Cooperation in Europe

_________________________________________________________________________

                  Washington: 2014
                  
                  
                  
                  
     Commission on Security and Cooperation in Europe
           234 Ford House Office Building
               Washington, DC 20515
                   202-225-1901
              <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="afccdccccaefc2cec6c381c7c0dadcca81c8c0d9">[email&#160;protected]</a>
              http://www.csce.gov




                 Legislative Branch Commissioners

              HOUSE                                 SENATE

ALCEE L. HASTINGS, Florida,            BENJAMIN L. CARDIN, Maryland, 
  Co-Chairman                             Chairman
EDWARD J. MARKEY, Massachusetts       CHRISTOPHER J. DODD, Connecticut
LOUISE McINTOSH SLAUGHTER,            SHELDON WHITEHOUSE, Rhode Island
          New York                    TOM UDALL, New Mexico
MIKE McINTYRE, North Carolina         JEANNE SHAHEEN, New Hampshire
G.K. BUTTERFIELD, North Carolina      SAM BROWNBACK, Kansas
CHRISTOPHER H. SMITH, New Jersey      SAXBY CHAMBLISS, Georgia
ROBERT B. ADERHOLT, Alabama           RICHARD BURR, North Carolina
JOSEPH R. PITTS, Pennsylvania         ROBERT F. WICKER, Mississippi
DARRELL E. ISSA, California

  
                 Executive Branch Commissioners

           MICHAEL H. POSNER, DEPARTMENT  OF  STATE
          ALEXANDER VERSHBOW, DEPARTMENT OF  DEFENSE
        MICHAEL C. CAMUN~  EZ, DEPARTMENT OF  COMMERCE




ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE

    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe (OSCE). The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.




MORNING DISCUSSION: ROUNDTABLE ON MINORITIES IN FRANCE


                           September 15, 2010

                              PARTICIPANTS

                                                                    Page
Dr. Mischa Thompson, Policy Advisor, Commission on Security and 
Cooperation in Europe.................................................1

Rene Lake, Ltl Strategies, U.S........................................2

Alain Dolium, 2010 Regional Candidate, the Democratic Movement, 
France................................................................3

Rokhaya Diallo, President, Les Indivisibles, France...................3

Khalid Hamdani, Director, Institute for Ethics and Diversity, 
France................................................................5

Jackie Celestin-Andre, Director, Corporate Diversity, L'Oreal 
France................................................................6

His Excellency Pierre Vimont, Ambassador of France to the United 
States...............................................................18



                                 MEMBER

    Hon. Diane E. Watson, a Representative in Congress from the State 
of California........................................................10



MORNING DISCUSSION: ROUNDTABLE ON MINORITIES IN FRANCE
                  
                     ----------                              

                SEPTEMBER 15, 2010

Commission on Security and Cooperation in Europe
                Washington, DC

    The briefing was held at 11 a.m. in the South Congressional Room of 
the Capitol Visitors Center, Washington, DC, Dr. Mischa Thompson, 
Policy Advisor, Commission on Security and Cooperation in Europe, 
moderating.
    Panelists present: Dr. Mischa Thompson, Policy Advisor, Commission 
on Security and Cooperation in Europe; Rene Lake, Ltl Strategies, U.S.; 
Alain Dolium, 2010 Regional Candidate, the Democratic Movement, France; 
Rokhaya Diallo, President, Les Indivisibles, France; Khalid Hamdani, 
Director, Institute for Ethics and Diversity, France; Jackie Celestin-
Andre, Director, Corporate Diversity, L'Oreal France; and His 
Excellency Pierre Vimont, Ambassador of France to the United States.
    Member present: Hon. Diane E. Watson, a Representative in Congress 
from the State of California.
    Dr. Thompson. Hello. I'm Dr. Mischa Thompson with the U.S. Helsinki 
Commission and I'd just like to relay my apologies from Congressman 
Hastings, the Co-Chairman of the Commission. Unfortunately, he's ill 
today and he will not be able to join us. I'm going to read his 
prepared remarks and then we're going to go ahead and begin the 
roundtable discussion.
    One of the first things is just for the mic, you need to push the 
button and the light will come on. The red light will come on. In terms 
of the interpretation, on channel 2 there is English and on channel 3 
there is French.
    And these, again, are the remarks from Co-Chairman Hastings:
    ``Good morning. Welcome to this Commission discussion on minorities 
in France. I understand that a number of you have flown a long way to 
be with us--to be here with us today. And I'm pleased that you are 
here, especially the members of the European Diversity Caucus. I would 
also like to thank Ambassador Vimont for joining us here today as well 
from the French Embassy.
    And as many of you may know, the Commission has long followed the 
situation of minorities in the 56 North American and European countries 
that make up the region of the Organization for Security and 
Cooperation in Europe, or, the OSCE.
    Increasingly, concerns around immigration, terrorism and national 
identity have elevated racial and ethnic minorities to the center of 
national debates in many OSCE countries. Recent events such as the 
opposition of the Ground Zero mosque, threats to burn the Quran and 
immigration laws adopted in Arizona and elsewhere are examples of how 
these issues have been pushed to the forefront in this very country.
    Conversely, Roma expulsion, banning face veils and promises to 
deport 30,000 illegal immigrants in addition to other proposed changes 
to immigration laws are taking place in France.
    While I perceive such events in both situations as wrongheaded 
political maneuvers, in particular in the case of the discriminatory 
policy of targeting Roma for expulsions, I would argue that there is a 
danger to politicians, the media and the public at large if we focus 
only on these issues.
    Minority communities are part of the larger fabric of society and 
we are all put at risk when those who seek to divide for political and 
other gain are allowed to define conversations regarding our 
communities.
    Both of our countries are host to vibrant racially, ethnically and 
religiously diverse minority communities that have made great 
contributions to our societies. Despite discrimination and continuing 
inequities, we have seen members of these communities rise to 
leadership roles in our societies. I am pleased that we have so many 
prominent guests here today who have done so in France.
    As we discuss the situation of minorities in France today, we 
should remember to broaden our focus beyond recent negative 
developments to include some of the positives and how best to learn 
from both situations.
    I am curious to hear how the French public has responded to the 
Roma policies but also what the status of President Sarkozy's plan for 
the suburbs is, following my visit to such a community in 2009, in 
terms of combating extremism or banning face veils or focusing on 
increased education and employment opportunities for Muslim and other 
minority youth, the solution.
    Last, is there really a global ``Obama effect'' that has brought 
more minorities into politics in France and elsewhere in the world?
    I hope that today's discussion will touch on some of these points 
and I look forward to the answers. I will now turn things over to Mr. 
Rene Lake, who will be moderating today's session. Mr. Lake?
    Mr. Lake. Thank you very much, Mischa. I want to remind everybody 
that the English channel is channel 2 and the French channel is channel 
3.
    So we're going to start immediately the discussion. I think it's 
going to be a very lively and a very interesting one, considering the 
actual situation in Europe as some of you may now. In fact, yesterday, 
the European Union has decided to engage into a legal action against 
the French Government on the issue of the Roma expulsion. So the 
Ambassador of France will be talking to us in about an hour. So he will 
be here on 12:10, so we will have a 20-minute conversation with him. I 
think it's going to be really interesting. And so we have basically an 
hour to engage in a conversation here among the panelists.
    So I will suggest that Alain Dolium, who is a leader of the 
Francois Bayrou party's MoDem to maybe start the discussion and tell us 
what the situation of minorities in France--especially in the public 
sector, as Alain was himself a candidate for the Presidency of Ile-de-
France recently, and it will be interesting to have his perspective. 
Alain, please.
    Mr. Dolium. Thank you, thank you for the introduction. I'm going to 
speak in French to be precise and to keep the timing.
    [Note.--The following remarks are delivered via translator.]
    Mr. Dolium. (Audio interference)--not to place these people into 
situations where they would only base it on their social ethnic origin 
or create the cliche that will improve their profile. The young people 
from the minorities are competent on issues much more than diversity or 
the neighborhoods. They're also capable talking about economic issues, 
budgetary issues, public health or environment. To be Black does not 
necessarily mean that you are a good minister for the sports.
    Finally, to give a new impetus, democracy must favor the emergence 
of a local democracy, the only one which is capable of involving a 
greater number of citizens, regardless of their ethnic or racial group.
    And the third key problem to which French society is confronted, in 
my view, is the definition and the implementation of a harmonious 
pension policy which is solidarity amongst the generations. This 
pension policy will only succeed if it is accompanied by a political 
economy policy that can create jobs.
    We must favor the creation of small businesses by creating a 
special French-style small-business act. We have a need for 
entrepreneurial capitalism. We need to have entrepreneurs who come out 
of these minority ethnic groups. They have to have access to funding 
for their startup projects in the developmental phase and this is much 
more complicated for them than for other entrepreneurs. These 
entrepreneurs can find investors here in the United States and they 
understand more than anyone else the value of a project before 
considering the pedigree of an entrepreneur.
    Finally, creating a freely French-style small-business act will 
allow these companies to have--to public contract because often times, 
these companies are poorly located and these small businesses, whose 
manager often times has a foreign-sound name.
    These three problems to which the French country is confronted have 
much of the solutions among most of the work force of the country. 
Without any more discrimination, multiculturalism is an underexploited 
asset. And this profile--these people represent as much as the other 
French, the future of our country.
    Our country is, by essence, indivisible, whereas we are divided by 
a destructive class whose only ambition is oftentimes to be able to 
keep power and to do it with an unshared manner. Thank you very much. 
[Applause.]
    Mr. Lake. Thank you very much, Alain Dolium. Now, we're going to 
ask Rokhaya Diallo, who is the head of an organization who uses humor 
to deconstruct ethno-racial prejudice to tell us about her perspective 
on the debate on the situation of minorities, the situation of the 
issues of diversity in France.
    Rokhaya?
    Mr. Diallo. Good morning, everyone. Thank you. I will try to make 
my presentation in English. Please excuse me for my English--
[laughter]--in advance.
    So I am the President of a French organization called Les 
Indivisibles, whose aim is to deconstruct ethno-racial prejudices 
through the use of humor and irony. Our organization seeks to address, 
in particular, those prejudices and stereotypes that devalue French 
identity for certain citizens for reason of their phenotype, their 
name, their origin, either real or imagined religious affiliation. The 
name of the association refers to the first article of the French 
Constitution, according to which the French Republic is 
``indivisible.''
    In the context of the European Union, the creation of Les 
Indivisibles was inspired by a German organization--sorry--[laughter]. 
So the creation of the organization was inspired by a German 
organization called Der Braune Mob, which means The Brown Mobilization, 
whose objective was to make obvious the fact that one could be at the 
same time Black and German.
    So is it in France. So we aspire to deconstruct the automatic 
association that systematically links phenotypes to nationality and 
therefore presupposes that a non-White person cannot be a real French 
one.
    We have drafted a charter that has been made available for you 
outside--and also on our Web site--whose first articles declare that 
being French is not a question of appearance; that being French is not 
something that one can see. And therefore, is not, for example, 
indicated by skin color or phenotype.
    Today, in 2010, France seems to conceive of itself as a country 
whose inhabitants have White skins and are of Judeo-Christian 
background. White French are commonly referred as ``French stock,'' 
suggesting the idea of a purity of French national origin. Those who do 
not correspond to this racialized archetype are considered as 
foreigners or ``paper French,'' which constitutes a major difference 
from the United States, where skin color does not lead to an automatic 
supposition of foreign otherness.
    So the work of Les Indivisibles goes well beyond a regular media 
watch. Last year, for example, for the first time, we organized the Y'a 
Bon Awards, a humoristic parody of the Academy Awards, that, with a 
banana skin on the guise of a trophy, honored those public 
personalities such as politicians, journalists and artists who authored 
the most racist remarks. [Laughter.]
    So the name of the ceremony was inspired by the advertisement for a 
popular breakfast drink called Banania. The ads are notoriously racist 
and well-known in France and stick with the racialism--racialized, 
sorry, symbolism from the colonial age.
    The phrase ``y'a bon'' is a pejorative attempt to reflect the Black 
dialect of colonial subjects, embodied by the famous Tirailleurs 
Senegalais, who still graces the product's cover who could not manage 
to say ``c'est bon,'' like we say in good French. [Laughter.] I'm sure 
it will be of no surprise for you that no one of the winners came to 
get his trophy--their trophy. [Laughter.]
    The goal of Les Indivisibles is to fight against the trivialization 
of prejudice that are largely propagated and maintained by the media 
and public figures whose power inflect harm and disseminate disaccord 
toward French people. This power is great, given the considerable 
public exposure.
    We aspire to confront the media and public figures with their 
responsibility associated with such power. So we point out the main 
sentences pronounced especially by our actual government by its 
specific politics against Roma people and people from Muslim 
background. So thank you for listening to me. [Applause.]
    Mr. Lake. Thank you, Rokhaya. Y'a bon de--(in French)--[laughter.] 
So now I'm going to give the floor to Khalid Hamdani who is going to 
maybe take a couple of seconds to tell us about his own background and 
the type of work he does in France and maybe have a few remarks on the 
debate.
    Mr. Hamdani. Thank you. First of all, let me thank you, all of you, 
for your kind invitation. And I'm going to speak maybe in between my 
friends Rokhaya and Alain. I start in English and I switch to French 
very quickly, I think. [Laughter.] And I apologize, of course, for my 
very low command of English.
    The problematic of the status of minorities and in society, and I 
had a little experience of this situation by my grand academic 
background and my job in my institute, and also I had 7 years political 
experience. But the status of minorities I think in the long term of 
history is linked to nations and civilizations and their own 
experience.
    But what we are talking about today, what we are interested by or 
involved in, is a dilemma, in fact. It's a dilemma of democratic 
nations and societies. The dilemma is this fragile equilibrium between 
liberty and equality. And how a democratic country can or could or 
should organize a fair and equitable equality, of course, for all the 
citizens?
    Tocqueville, I think, spoke about that a long time ago--but in the 
formal and in the former democracy, the legal system is democratic, of 
course, but in fact, on the ground, it was and it's still--in France, 
of course, it's still, and in Europe in general, a system of 
domination: the domination of women, the domination of ethnic 
minorities. Well, all these groups are dominated.
    And today, in the democratic societies of Canada, France or Germany 
or Great Britain, the question is how to be equal effectively without 
this existence of a kind of symbolic social hierarchy. The symbolic 
social hierarchy, I think, and I--(in French)--is the real problem in 
my opinion, I mean, the most difficult problem to solve because in the 
face of this challenge, European or American responses are definitely 
different according to their social frameworks of their societies--the 
frameworks of their society.
    In France, the concept--and Rokhaya said that--of minorities or 
communities do not exist in the domestic political thought, in the 
legal system. This is a myth. Oh, yes, it's a beautiful myth but it's a 
myth, indeed, even if it's a French Republican myth, but it's a myth!
    The reality is so different. The reality that every French can see 
in the street is that the minority exists significantly and the 
minority and the communities are there but we deny their existence. 
They exist without existing in the symbolic social hierarchies, they 
don't exist in the domestic political thought and in the legal system. 
So subsequently, there is no public policy for minorities. And so the 
question of minorities is reduced to a social-welfare issue. It's not a 
political issue.
    So far, it's not a political issue. The minorities could not have 
the power--political power--voice, and could not share it. There is a 
huge discrepancy between what is safe and what is expected, and this 
discrepancy is the most important problem. And I'm afraid I'm obliged 
in the few seconds I have to switch now in French. This discrepancy is 
so awful that it obliges me to switch. [Laughter.]
    [Note.--The following remarks are delivered via translator.]
    Mr. Hamdani. The mode of access to the political class and the mode 
of reproduction excludes minority by their own design. The social, 
economic and cultural obstacles from a statistical pinpoint that 
encounters every person to reach the political level, and there are 
more symbolic obstacles. These are psychological obstacles and others. 
There's a real problem.
    People who come from ethnic or racial minorities are more and more 
people who come from poor backgrounds. And they are perceived as being 
not members of the social corpus and also of the national fabric. And 
what the French political leaders urge to the minorities that we 
represent, and Alain knows it very well--you come from a more modest 
background, Madame--they say, you must erase or even deny all of your 
differences between you are in the Republican universality.
    But every time you try to run for office or each time you're 
endorsed for office, they are told, yes, but your differences will 
cause us to lose these elections. So we have consistently this 
contradicting urging which means that the three challenges that Alain 
mentioned, to which I subscribe, we'd have to have a complete overhaul 
of the educational system. We have to do that in order to inoculate 
these differences from the very beginning for the long term. The media 
system has to be completely overhauled to create an imagination of 
diversity and not just ad hoc, on-the-ground actions.
    And we must target to build a French-style patriotism. Of course, 
it has to be very beautiful and very aesthetic, of course. A French-
style patriotism in which you have local rooting because we have to 
acknowledge all of our regions: burgundy--(in French)--or cinnamon.
    We have to enshrine all of these regions, truly rooted in the local 
level; accept our history--the good, the bad and the ugly. We must be 
open toward Europe, which is our border that has to be constructed, and 
we have to be open to the rest of the world for political, moral and 
environmental issues. Thank you very much. [Applause.]
    Mr. Lake. Thank you very much, Khalid Hamdani, for this 
intervention and especially your question on institutional challenges 
we have in France. I'm sure that a lot of people would like to maybe 
ask you a question or comment on some of your statement.
    So now I'm going to give the floor to Jackie Celestin-Andre who is 
going to give us, I guess, a private-sector perspective on the issue.
    Ms. Celestin-Andre. Yeah. Good morning. My name is Jackie Celestin-
Andre I'm Diversity Director for the L'Oreal Group. I will speak to you 
entirely in English because I'm an American living in France. 
[Laughter.] So I won't switch on you. I may though. Not knowing it, 
though.
    So thank you, again, for this opportunity for us to talk about 
L'Oreal Diversity's policy as it relates to creating an inclusive 
environment for all diversities in France. So I'm here, as Rene 
mentioned, to give a private-sector example of how we are managing 
diversities and all the issues we have in France.
    So first, to start, L'Oreal as a company has built its identity 
around strong values. Among them, diversity is a strategic asset for 
the group in terms of creativity, innovation and performance. As we are 
a cosmetics company, the No. 1--I'm not bragging--company in the beauty 
industry in the world, we understand that beauty and diversity go hand 
in hand.
    Through various engagements, such as the group's code of business 
ethics, signing the global compact in 2003, L'Oreal has formalized its 
commitment in favor of nondiscrimination. In 2004, L'Oreal was one of 
the first companies in France to sign the diversity charter in France. 
For L'Oreal, signing the diversity charter was important and coherent 
with the group's values. It was another impetus for us to continue to 
challenge ourselves to be an active participant in creating a climate 
of inclusion and equal opportunities in three areas: within the work 
force in the company, within the workplace in the company and outside, 
and especially in the marketplace in France.
    So after signing the charter--we just didn't want to sign another 
charter just to sign a charter--a string of events took place, starting 
with at corporate headquarters in France, of which setting up a 
diversity team with dedicated members with resources, and developing a 
policy that covers six diversity areas--and I would show this to you 
but I have no screen.
    So the areas include nationality, ethnic and cultural backgrounds; 
social background; gender; disability; and age. So with those seven 
criteria, of which ethnic and social diversity is one of our core areas 
that we're working on. It's important to note also that our North 
American division of L'Oreal in New York started earlier than we did in 
managing diversity with an office in New York, headed by the Vice 
President in charge of diversity.
    So coming back to L'Oreal France, and the focus of this roundtable 
is minorities in France, I'll top-line just a few initiatives that 
L'Oreal has implemented in France. And it's important for us also, in 
my discussion to note when I say--when we talk about ``visible 
minorities'' in France, include, for example, populations from sub-
Sahara and North Africans, Indians, Chinese and, increasingly, other 
European, Eastern European countries, who are suffering vastly from 
discrimination.
    So as we all know, in the United States and other parts of the 
world, discrimination is perceived to be the single most important 
integration barrier to the work force. And in France, to counter this, 
L'Oreal has developed or participated in a number of internal-external 
initiatives with public and private stakeholders to promote equal 
opportunities in the workplace, work force and in the marketplace.
    Unfortunately, I don't have enough time to go through all our 
initiatives, so I'll share a few of them. So in the work force at 
L'Oreal team diversity, a mixture of origins and backgrounds and 
talents are the keys to our company's success. Of course, we are a 
company, so we're looking for performance above all.
    Diversity at all levels in the organization promote a higher level 
of creativity and a deeper understanding of our consumers. So when it 
comes, for example, to recruitment, L'Oreal has identified major 
avenues for identifying talent. Diversification of the group's 
recruitment challenges by setting up partnerships with associations 
targeted to different minority groups. Creating or participating in the 
recruitment fairs also dedicated to minority candidates who experience 
difficulties in a job market. And also, by--and it's really key--also 
by working and raising awareness of our partner schools so that they, 
themselves, develop a social and cultural mix amongst their students, 
providing the workplace with talents from different communities.
    For example, L'Oreal joining the government plans called the Plan 
for Banlieus--a committed group to facilitating access to employment 
from candidates coming from underprivileged neighborhoods. And most of 
them are what we call visible minorities.
    And so today, the group has approximately 9 percent of the new 
hires of young people under 26 coming from these areas. So we are 
increasingly including with the work force in France more and more 
ethnic communities.
    Another example is working to promote equal opportunity in 
education. Education is a key to success in any society and it helps to 
overcome barriers that minorities face. Therefore, the group invests in 
education at different levels--high-school level, college, the post-
grad levels--with very basic projects like scholarships and mentorship 
programs, creating a bridge between the private and the educational 
system, which is very, very new for France, unlike in the United 
States, where we have that type of involvement for a long time.
    We've also made our application process much more objective, 
recognizing that, as a group, we had our own house cleaning to do to 
make sure that we are not inadvertently discriminating in our 
application process. And we are currently testing anonymous resumes, 
which remove all identity from--to identify the candidate's origins. 
We're testing that to see if that's another type of action that we can 
use to prevent discrimination during the work force.
    In regards to the workplace, for companies like L'Oreal, 
discriminatory attitudes, behaviors, the lack of awareness and of 
diversity issues are some of the biggest challenges for us to succeed. 
We have to make sure that our employees understand what diversity is 
and we need to be able to change attitudes and behaviors. To help us 
with this, since 2006, we've developed a specific diversity-training 
program aimed at about 8,000 managers in Europe, in 32 countries.
    By the end of 2009, over 6,000 managers have done this training in 
Europe, of which 3,500 managers have done the training in France at all 
levels of management from the CEO down to product managers, for example 
in marketing. The next phase involves training the balance of employees 
in France that totals about 14,000 people. It's no small feat, but we 
believe it's necessary because changing behaviors of our employees is 
going to be a key factor of success to making diversity work for 
L'Oreal as a company.
    My time is up, OK--[laughter]--one last thing. We are fostering--
[laughter]--one last thing, though, we are fostering a climate of 
social inclusion of minorities in France through imagery. It was 
mentioned earlier that advertising is key, the media is key. So we are 
making a point of using models in our advertising that reflect the 
diversity of beauty.
    L'Oreal, with brands like L'Oreal Paris and Maybelline, and 
Garnier, Lancome, Softsheen-Carson, to name a few, help us to project 
imagery of minorities in France--we've fed the social diversity in 
France. We are not just using White models, but also Black, North 
African, Indian and Asian models in France.
    So in conclusion--[laughter]--there is a lot we need to do to 
change, to learn in regards of managing diversities. We are continually 
challenging ourselves, checking our progress. We've developed the first 
diversity progress report. I will be able to list some examples for you 
that show where we--what we've done and where we are. And we have a lot 
more work to do. But we believe we are heading in the right direction. 
And for that, I thank you for your attention. [Applause.]
    Mr. Lake. Thank you very much, Jackie. Now, to close this first 
round of intervention from our panelists, I'm going to give the floor 
to Kag Sanoussi. And I think it's good that you are finishing this 
panel because you are going to be the common point between the public 
sector, the activities of community, government, people in the private 
sector as he is responsible of the charte de la diversite, which was 
just referred to as by Jackie a few minutes ago. So it will be 
interesting to tell us a little about this public-private partnership. 
You guys upgraded to the charte de la diversite--and maybe make a few 
remarks.
    [Note.--The following remarks are delivered via translator.]
    Mr. Sanoussi. Thank you for giving me the floor and thank you so 
much for this invitation. I am going to be speaking French today. 
Indeed, the charter for diversity in France is the first charter within 
Europe which constitutes a commitment for companies. And through this, 
companies commit themselves to no longer discriminating.
    There is an awareness of discrimination and thus this commitment 
aims to set in place various policies. The charter for diversity is 
implemented by the companies as well as by the public policies. This is 
something that is managed with the various public and private 
structures. And our aim is simple, and this is what I'm going to talk 
about.
    Indeed, in France, there are two perspectives: Either the glass is 
half empty or it's half full. And a great author once said that we tend 
to make our difficulties greater than they are and our liberties 
smaller than they are. So many things are not going well, but we do 
have 3,000 companies that are committed to doing something. Indeed, the 
fight against discrimination and promoting diversity is something that 
is part of management. We can't just say it's going to happen.
    Indeed, there are stereotypes that block things. There are certain 
representations that go all the way back to slavery. And they are often 
linked to very trivial events. You know, for example, you might not 
like a given person. And then you will just build your representation 
on that person and you will apply it to all other people. Thus, the 
3,000 companies in France that are committed to this charter, including 
L'Oreal, have started training their employees.
    Indeed, to fight against discrimination and in order to promote 
diversity, you need to know what you're talking about. A surgeon is not 
a moderator and a dancer is not a mountain climber. You need to know--
you need to call a spade a spade and know what you're talking about.
    And so here in France among our signing companies--well, we have 
about 70 companies that are commended. And they have already started 
working on their management process. How do we recruit employees? How 
can we ensure that when I'm recruiting somebody I'm simply focusing on 
their values and not on other factors?
    And so in France, this momentum has started. And we want to ensure 
that people like Alain, Rokhaya or Khalid will be in the field. And we 
need to support them via the companies, whether these companies are 
private or public. And they need to incorporate the notion that 
including diversity is not something you're doing just because it's 
nice. You know, we need to really understand what's happening.
    And we need to--we must not reject others. And by not rejecting 
others, that means that we accept ourselves. And in order to do this, 
we need to ensure that we are walking together hand in hand in order to 
create a unified momentum and show the way to others. And that's what's 
very important.
    I'd like to conclude by calling upon you to exercise caution, 
whether it's in France or in the United States. We need to have these 
points of caution. And by that, I mean our own individual 
responsibility.
    We often tend to say, oh yeah, this needs to be done; that needs to 
be done. And so you may say, oh, the state needs to do this; the NGOs 
need to do this. Or the NGOs say, hey, the company needs to do that. 
The minorities say, oh, the Whites have to change. The Asians are going 
to say, no, the Blacks need to change. The Arabs are going to say, no, 
somebody else needs to do it.
    Let's face up to it. We all have our own responsible--individual 
responsibilities. Individualism is important. You know, what are we 
going to do here? We have been talking about diversity. What are we 
going to do afterwards?
    We say it's bad to discriminate against others. But then we're 
amongst ourselves, you know, guys for example talk about--have very 
macho statements about women. Or sometimes we say bad things about 
homosexuals. And we really need to look at ourselves. We need to really 
focus on our own commitment within the societal issue.
    Another point of caution: We need to say things correctly. In 
France we tend to perhaps disguise people. Rather than saying a Black 
person, we say a colored person. Perhaps in the United States, you 
don't say colored. In France, saying a colored person has zero meaning. 
You know, a Black man is a Black man and that should not be an insult. 
And a homosexual is a homosexual. That is not an insult. And we need to 
really incorporate these notions when we are talking about diversity.
    Last point of caution, in my opinion, is the issue of selective 
forgetfulness. Of course, you know, we try to recruit people who look 
like us. You know, you come from a certain university and so you tend 
to focus on people who come from that same university. And so if I see 
French people, for example, sometimes I'm going to head toward them.
    And so selective forgetfulness is something we need to be aware of. 
We need to remember this notion of representation. You know, we may be 
drawn to somebody, but that's not because--that's not a reason to 
recruit that person. You need to recruit people based on their skills. 
You need to open up doors.
    So those are just a few words to talk about the charter for 
diversity in France. Our aim is so that together--and ``together'' is 
the key word--we need to ensure that our society can be something that 
we are proud to leave to our children. [Applause.]
    Mr. Lake. Thank you very much, Kag Sanoussi, for the intervention. 
So as I had mentioned at the beginning of this discussion, the 
Ambassador of France is here. He did join us when we started this 
conversation, Ambassador Pierre Vimont. He will be speaking in about 20 
or 25 minutes. But of course, if you want, he is welcome to also answer 
some of the questions and interact with some of the people in the--(in 
French)--if some people have some specific question to him.
    [Off-side conversation.]
    Mr. Lake. OK. So we have a surprise guest. [Laughter.] So I'm going 
to turn the mic to Mischa and she's going to tell us what the--who is 
the surprise guest and what is going to happen now.
    Ms. Watson. Good morning.
    [Chorus of, ``Good morning.'']
    Ms. Watson. I could not help but to step inside the room. I am 
Congresswoman Diane Watson, a former teacher way back in my other life, 
and I taught school in France. [Applause.] So as I was coming--I think 
many of you know that this is the week that the Congressional Black 
Caucus holds its forums and then on Saturday night we have a major 
dinner.
    And so right now, we are in the Congressional Auditorium talking 
about our mission and how we can move from poverty into prosperity. And 
so it's very interesting--listen, I was trying to pick up a few words 
here and there. It was way back in the year 19--[laughter]--that I was 
there in France as an elementary-school teacher and I wanted to see how 
much of the French I could still remember. I got every 10th word. 
[Laughter.]
    But I want to say to you, I think it's really essential that we 
discuss this whole issue of race. And I found full acceptance when I 
was in France as long as I did not criticize what was French. 
[Laughter.] I found France to be the most nationalistic nation I had 
been in. So my friends, who were not minorities; they were the majority 
party. They would come in and look around and might say something that 
wasn't quite complimentary. And I would have to say, if you want to be 
put out of this place, change your conversation.
    But we see France as a very strong ally, accepting of people from 
all over the world. But in this country, we need to have that 
discussion. And so to have the Commission raise the issue of France and 
race and those that go there and live there, I think, is essential. We 
should model ourselves off of the Helsinki Commission and have a 
discussion in America about race. It is that time.
    And I want to say we just had a speaker and it was the Secretary of 
Agriculture. And you remember the Shirley Sherrod incident. Well, 
that's going to turn out to be a benefit because many of the poor 
farmers in the southern part of our country never got their 40 acres 
and a mule. And as we do the appropriations out to various departments, 
we have failed to compensate those that use slave labor to produce the 
products and the produce that America most desperately needs.
    So thank you, Helsinki Commission; thank you, those who are 
witnesses. I want to say to the Ambassador from France, thank you for 
being here and acting as a model for us here in America because we are 
still a young nation and we have not perfected democracy as yet. We are 
working on it. And we are so pleased that America elected someone who 
is African-American. So this is a very timely discussion you're having, 
and really teach us how to perfect our democracy. Thank you for coming 
here. [Applause.]
    Mr. Lake. Thank you very much, Congresswoman Diane Watson. They 
were suggesting earlier, so we are going to open the floor to all the 
participants. And whoever wants to make a comment or maybe ask a 
question to a specific panelist or even, maybe, to the Ambassador of 
France, please do so.
    There is a handheld mic somewhere around here. If you are sitting 
in a place where you don't have access to a mic, just raise your hand 
and we can give you a mic. So we are going to start--you want to--
please, I suggest that you tell us your name and introduce yourself 
very quickly before asking your questions or making your comments.
    Ms. Givens. Yes, I'm Terri Givens. I'm a Professor at the 
University of Texas at Austin and I have been studying these issues in 
France for many years. Most recently, I have been in France studying 
the issue of discrimination and I'm wondering, what is the current 
perception of anti-discrimination policy?
    I know that HALDE seemed to be having some successes, the equality 
body in France, but was going to be pressured to become part of the 
Defender of Rights by the--I know it was passed in the assembly and 
it's being considered in the Senate. So I was wondering what the--
first, the perceptions and then what the situation is with the equality 
body.
    Mr. Lake. Anybody want to take on that question? Khalid?
    Mr. Hamdani. OK.
    Mr. Lake. OK, please go ahead.
    [Note.--The following remarks are delivered via translator.]
    Mr. Hamdani. Well, there are several distinctions to make. So the 
preamble to the French Constitution is extremely clear concerning the 
notion--the principle of nondiscrimination and the positive treatment. 
And that is clear and there is absolutely no ambiguity in terms of 
France's position.
    We also have the law of 1992 from Plevin--a resistant--regarding 
penalties when somebody commits discrimination. And this is a penal 
fault. So we need to distinguish the evolution from the European 
framework at the 1997--and the Amsterdam treaty. And there is also all 
the other modifications that have occurred thanks to the directives, 
and so the legal framework, the regulatory framework, and of course, 
French public law is very important.
    So the French legal framework, in fact, perhaps, overprotects real 
or supposed victims. That being said, we have this extraordinary 
framework which looks at civil and penal and public rights. But after 
that, we have reality in terms of the effective application of these 
laws and of the effective sanctions. And here, we have a huge gap, a 
huge discrepancy, and a lack of repression against discrimination in 
France.
    And of course, there has been the creation of a higher authority 
against discrimination. And this is something that was implemented via 
European directives. And so the most symbolic is, of course, the 
British one. However, what you need to keep in mind is that the French 
framework exists in theory; however, it is impeded by mentalities. And 
so there is a huge gap between the law and the application of the law. 
And in fact, unfortunately, there are no radars that can really catch 
people who are committing discrimination fraud. [Applause.]
    [Note.--The following remarks are delivered via translator.]
    Ms. Diallo. I would like to add something to that. And in fact, we 
have discrimination against certain people. But we talk about the way 
people talk, and in terms of that, regulations in France are not very 
effective. In fact, our minister of the interior was penalized by a 
judge for uttering discriminatory remarks. Yet he has maintained his 
post, and yet, he was determined by the courts to have uttered 
discriminatory words. And so I think in France we really need to 
address this issue and this discrepancy in terms of the treatment.
    Mr. Lake. Comments on this--on the answer you got? Or any other 
questions? I see some hands there. I don't know if you could have a 
mic.
    [Note.--The following remarks are delivered via translator.]
    Questioner. Hello, I have a question for Jackie Celestin-Andre. 
Earlier, you mentioned that L'Oreal was testing out an anonymous resume 
process. And I'd like to know whether you think this procedure is 
effective. In fact, as all the speakers said, it's a very deep-seated 
problem related to economic and political conservatism.
    And so I'd like to know whether this anonymous resume is an 
effective procedure because all you're--what you're really doing is 
just delaying the moment when the job applicant will have an interview, 
a face-to-face interview. And so if those discriminations still exist 
then the answer will--it will continue.
    Mr. Lake. The same victim may want to take it. [Laughter.]
    Ms. Celestin-Andre. [Laughter.] OK.
    Questioner. Yeah, just a two-finger on this. I was curious--I mean, 
thank you for providing the business perspective here because of course 
we talk a lot about education, but if people are educated and there 
isn't a business community that is receptive to qualified minorities 
then, obviously, we have a problem.
    And so I was wondering what kind of legal constraints there are in 
France to having an explicitly, positive discriminatory policy within a 
company? So if there are issues--seeing as how France has this policy 
of race-blindness, whether a company like L'Oreal can be very explicit 
in its recruitment of minorities, or whether it might run into legal 
problems with lawsuits, et cetera? Thanks.
    Ms. Celestin-Andre. To answer the first question on the--if 
anonymous CVs are efficient or not: We don't know. That's why we are 
testing it. We are testing all--we are open to testing all types of 
methods to help us overcome barriers to perceived--barriers to getting 
into an interview process. We know that in France, last names, origins 
of last names are very discriminatory in France.
    We know that where a candidate lives, if they live in a good 
neighborhood, they won't have a problem getting an interview. But if 
they live in a bad neighborhood, they will have a problem getting an 
interview. In France, in resumes--photos are used on resumes in France. 
And we know that if you look at a photo of someone, you can clearly see 
where that person is coming from.
    And so these are things that are process-driven. And we are looking 
at all kinds of ways to help overcome that. We don't know if it's 
efficient or not. The anonymous resumes were tested in different 
countries already. We tested it in Italy and the results are not 
conclusive. So we know that doesn't work in Italy, so we have to find 
other ways.
    For us in the company in France, what we've done already in terms 
of objectively cleaning up our application process is that candidates 
can send their resumes through our Web site. And as when they do that, 
of course, all factors are there: name, address, et cetera. So what we 
decided to do was before the resume filters down to the operational 
H.R. managers, we remove automatically the address of the person; when 
we can, we remove the photo. So we're already filtering the resumes to, 
again, provide a--to remove what we know to be barriers to getting into 
an interview process.
    And in regards to--I guess the question--the second question is 
more, is L'Oreal setting quotas in terms of hiring? If I can restate 
your statement--your question is that, do we set quotas for hiring 
different types of communities? And no, we don't do that. It's pretty 
much illegal in France. So again, it's illegal. But we have to make 
sure that we are getting the right talent.
    And that's why when we talk--when I talk about diversifying where 
we go to meet candidates, that's a key factor--a key action we're doing 
to make sure we are going to different schools, schools in different 
neighborhoods; we are not just going to the big campuses--(in French)--
or Sciences Po, which historically L'Oreal has been going to, and we 
realized that we're getting the same profile of students. And so we're 
now going into universities--universities in France, they don't have 
the same image as they do in the United States. So we are going to 
universities. We are going to different types of campuses to try to 
meet the talent that we know is there. And we need to be able to reach 
out to them.
    Mr. Lake. Thank you very much, Jackie. Myself, I lived in France 
for a long time, several years. And I was there when the old debate 
started on the quota for a woman in the political list. So at the same 
time there is no quota policy in France, there was--France may have 
been one of the first countries in the world to bring a quota policy 
for a woman. And I think a lot of people thought that it was very 
progressive.
    So it is interesting to know where we are now. That was like 15, 20 
years ago. I mean, the Ambassador will certainly remind us. But I think 
that a lot of democrats around the world were very happy about that. 
But it is interesting to see that it is not really translating in the 
minority world. But I think that Alain Dolium would like to say a few 
words. Alain, please.
    Mr. Dolium. I would like to talk about society. We talked about 
quotas. Quotas are, indeed, one of the central issues that are being 
dealt with in the French Republic. And when I talk about the Republican 
space, what I mean by that is that by this expression, you have part of 
the answer when you talk about the problem of quotas in France because 
in fact, according to Republican values and according to our Republican 
constitution, we are told that quotas would indeed be outside of the 
law and that quotas would not be suitable in a Republican situation.
    But we have a basic problem. Just imagine we are not talking about 
the diversity. We are all talking about the need to acknowledge a 
multicultural society in order to move toward a post-racial society 
that will allow us to live better all together.
    But how do we do this? If you do not know at the startup phase, if 
you cannot identify the range of the problem, identify the people who 
are subject to this discrimination, identify the value of these 
policies, the effectiveness with which will, indeed, allow you to 
improve the situation, I don't know if you can call these quotas if--I 
don't know if you can call these measures, decisions.
    At any rate, there is a quantitative element which is lacking in 
our system as it stands. So as it's considered upfront in France. And 
then I would like to talk about quotas once again because today, I had 
a career in a big corporation, that I won't mention--mentioned CBS and 
DHL are two large America corporations--because very quickly, they 
recognized two things. They said if they wanted me to become a senior 
manager, to become one of the CEOs, leaders of the strategy of the 
group, they said that it would be better if I went into North American 
companies.
    Nonetheless, when I worked in these North American companies with 
their representatives in France I had--once a month, I was on a quota 
basis and revolving basis in the management board. And our role was 
mostly to be working with White men, 55 years old, who came up out of 
the great schools and of the great social establishment institution. 
And these people are no longer esteemed because it now--we believe that 
it's the fully normal and logical representation of the French elite.
    The third point is the nature, per se, of this quota, which is a 
basic problem, which consists in saying, yes, OK, diversity, how can we 
introduce it? How can we measure it? How can we improve all of these 
things?
    But I believe that there is something that we do not talk enough 
about. Namely, the positive contribution of diversity because today, we 
have to admit, in a company such as L'Oreal, which has market segments 
which are present all over the world, market segments which are 
targeted according to consumers, male and female who belong to 
different ethnic and racial groups, it would seem that it would be 
suitable and effective for the company and many other corporations, 
given the globalization of the economy to have profiles which represent 
all of the markets that the company is involved with. So I tend to 
believe that in order to improve the issue of diversity, you have to 
look at the economic benefits thereof.
    Ms. Celestin-Andre. If you'd allow me to--just to add--just to 
comment on quotas. Just to note that in France, it is acceptable to 
have quotas on the hiring of people with disabilities. So in France, it 
is a legal requirement--I forget the size of the company that it has to 
be. Six percent of the workforce has to be people with disabilities.
    There's a new quota that just came out. I think we mentioned it in 
terms of the Board of Directors where they are trying to get women, 
more women representation at a very high level, so it's now, I think, 
40 percent of the board has to be women. So that's another quota.
    And there's recently a new quota that's passed on terms of age 
because in France, there's a huge problem with age discrimination. If 
you're over 50 years old, employment--retention in employment, as well 
as evolution becomes a problem. And so with the weight of the social-
security problem in France, they need to get--need to maintain all the 
workers in the work force, so now there is a quota that's put out.
    So progressively, we're seeing where the government is 
institutionalizing laws to address issues. And so maybe 1 day--who 
knows--maybe there will be a quota in regards to ethnic representation.
    Mr. Lake. OK, Khalid, now, or--(in French).
    [Note.--The following remarks are delivered via translator.]
    Mr. Hamdani. Yes, we have to reform the constitution in order to 
establish quotas. Indeed, in terms of gender parity, that was done in 
the constitution. That was done. But all you need to do that is to 
reform the constitution.
    Mr. Lake. OK, thank you very much, Khalid. I know that there is a 
lot of people are--I think the debate is heating up here. So Reda Didi, 
maybe you want to introduce yourself very quickly?
    [Note.--The following remarks are delivered via translator.]
    Mr. Didi. Yes. Good morning. I'm Reda Didi. I am the Chairman of 
the section which works on working-class neighborhoods on these issues 
of discrimination. So the issue of companies has several points. In 
terms of elections and companies--recruiting: You have to know that we 
are in an area--we have legislation and labor laws in France which 
protect very much the employees. Therefore, hiring is much more 
complicated, and firing a person is also much more complicated in 
France.
    So during the hiring process, you have to talk about this in a very 
vulgar manner. A hiring process is a challenge. It's complicated. So 
recruiters do not want to get it wrong about this person that they will 
hire because to fire that person will be very expensive.
    So you also have to think of a second thing is that in France, 
according to recent studies which have been demonstrated, the mixing of 
persons and the mixing of marriages and people who blend together is 
the strongest in the world--mixed marriages. So people like each other. 
People do live together. People frequent each other. People get married 
and they have children. And in France, ultimately, we have a problem 
with a very small part of the elite--which is the case in all countries 
of the world--and they close the doors to power and they let nobody in.
    And given that we are the visible markers of this diversity, 
finally, because this is basically due to a social difference, as my 
colleague said it very correctly--notably, Hamdani and Rokhaya Diallo--
we are visible and we can see that we're not there. We're not in the 
Board of Directors, we're not represented in Parliament and we can see 
that we're not present in all spheres of power.
    So what are the solutions? So the issues of quotas is interesting 
to me but it has to be limited to finding the good diagnostic of the 
situation. Within companies, you cannot give a position of manager and 
save it for this number of Blacks, Asians and North Africans because I 
wonder who's at the door and who's allowing people to enter. It's just 
like a nightclub who lets you inside a nightclub. You let the person in 
and you have to allow people in who are compatible with your policy, so 
you have to be cautious there.
    But this is a real issue, a real question that we have to ask 
ourselves about ethnic groups and have to come up with a great 
diagnosis because oftentimes, we attend conferences and we don't have 
the same diagnostic, but we have to come up with right solutions. For 
example, the HALDE, the committee to fight discrimination.
    I find that a shame for issues of world competitivity we have 
multiple competencies. I think our country can go much further if we 
indeed show our skills and we have to find, in the neighborhoods, these 
people who are very competent, who are very skilled and find them where 
we are.
    But in this issue of competivity, this committee to fight 
discrimination--for example, let's take a country that is similar to 
ours--Great Britain: the same population, the same ethnic diversity. 
Their budget is different. They have to understand that. For example, 
I'm not saying that we have to work on affirmative action. We must 
first of all, work against all issue discrimination and sanction very 
strongly people who do not respect the law because many companies in my 
country play the game and they are advancing their logic, but there are 
other companies that don't allow us to reach the higher levels of 
management because at our level, we do mostly get by.
    Mr. Lake. I have you in the list: Aurelie Ganga. And please 
introduce yourself, and in a minute or two.
    [Note.--The following remarks are delivered via translator.]
    Ms. Ganga. My name is Aurelie Ganga. I have just concluded a 
masters in management at Sciences Po and I've just created a company in 
Europe and this is the Caucus of European Diversity. Why did we create 
this group because we wanted to go to the world's greatest democracies 
and to transpose all of the tools that have been used to ensure 
integration of minorities in each country?
    And the first debate that we're starting here is the one that we're 
having today in the United States. And we're very happy that our 
Ambassador honored us by his presence. And we're very happy that these 
companies are supporting us such as L'Oreal, la Charte de diversite les 
ecoles, and other groups.
    But I'd like to say that this is not a problem that is specific to 
France. And I believe we will all win together. Discriminations are not 
exclusive to one color of skin or exclusive to homosexuals or to 
handicapped people. And for example, in my university, Paris-Dauphine, 
we talked about the issue of handicaps because people who have 
handicaps have many problems in France joining companies. So what we 
want to do is observe, come up with tools that can be applicable, given 
our history.
    France is a beautiful country. We love our country and we are 
happy, also, to be able to have these exchanges with you. But we want 
to let you understand that we have a lot to contribute too. Perhaps 
this might be the opportunity for another fact-finding visit where 
Americans can come visit our country, find out what we do in terms of 
health, education and on the treatment of young people. Thank you very 
much. [Applause.]
    Mr. Lake. Thank you. Thank you very much. I know there are a lot of 
people who would like to speak. I see some of those hands. But I just 
would like to remind you, we have just 20 minutes left and the 
Ambassador of France is supposed to do some closing remarks. In 
general, after the closing remarks is the end of everything.
    But I understand from the protocol of the French Embassy that the 
Ambassador is interested in taking some questions after his remarks. So 
I guess we want to keep maybe, like, 15 minutes--so we have another 5 
minutes, so I suggest that we make quick comments or quick questions 
and we go around and finish those with the panelists and give the 
chance for the Ambassador to speak. Please, sir.
    Question. Thank you very much. I will speak French.
    [Note.--The following remarks are delivered via translator.]
    Mr. Ramanaior. Yes, my name is Philip Ramanaior. I am here thanks 
to the invitation of Dr. Sephocle--Marilyn--to take part at this annual 
convention of the Black Caucus. Now, with respect to discrimination or 
affirmative action, this is a proposed solution, but I would like to 
talk about the work that various groups are doing in Guadeloupe because 
I live in Guadeloupe, which is part of France and Europe as well, but 
I'd like to talk about the work that is being done.
    And here, what's at stake is working on the root causes, be they at 
the so-called Whites, and the problems that we have within our 
community. It is indeed true that our community does not really 
integrate itself because we have had a break of affiliation toward our 
history. And it's because--this is a treatment that exists. We must 
really understand why this break has occurred and why we have to work 
on ourselves. I'm not talking about French people, White people. We 
have a work to do on our own selves to figure out, why do we not 
project ourselves; we just live day by day; why we do not look to the 
future; why do we talk about diversity?
    And many people know exactly what they're doing--everybody knows 
well what you're doing, but there are very few people from the West 
Indies who mobilize themselves because we have identity problems. We 
don't know exactly where we come from. And I think in the United 
States, African-Americans in the United States do not have this problem 
of break of their origins. American Blacks know exactly where they come 
from. But we, when we were freed from slavery, we were told we were 
just French and your ancestors were the Gauls. So we have an identity 
problem.
    We went to Guadeloupe, but we have this major problem and we're 
trying to solve this. And this will go along with these problems of 
discrimination which are being dealt with here.
    Mr. Lake. Even in America, sometimes, the time can be extensible. 
So I just learned that we have 15 more minutes and so we can go until 
12:45. So here's what I'll suggest: The Ambassador has to leave at 
12:30, so if it's OK with all of you here, we're going to stop the 
exchange--the Q&A for a moment; give a chance to the Ambassador to make 
his remarks--I will not call them closing remarks anymore--and give you 
also a chance, maybe, to ask him three or four questions before he 
leaves. I think it is going to be very interesting.
    So by the way, I'm very surprised that nobody really has raised in 
a very specific way the issue of the Roma riots or situation in Europe. 
And I'm sure that the Ambassador will take a minute or two to talk 
about it in his remarks. [Laughter.] So maybe a last comment and we'll 
give a chance to the Ambassador to speak. Please, go ahead.
    Dr. Sephocle. I'm Marilyn Sephocle. I'm a professor at Howard 
University. And I am a French and American citizen, so I've had the 
opportunity to observe both societies with regards to the issue of 
race.
    And one thing that I just want to point out in the French context 
is that there is--people are afraid of two things especially in the 
elite in France. They are afraid of a quote of statistics because the 
statistics refers to history, to a painful history of gathering 
statistics about the Jewish people, for example, for very nefarious 
aims.
    And another word that people are very afraid of is 
``communautarisme.'' It's a very bad word in French.
    So I don't know whether the discourse has to change. But in order 
to diagnose a problem, you need to have statistics. For example, we all 
know that when it comes to wars, minorities in France are 
disproportionately represented among the casualties, whether it's World 
War I, World War II or even now, the war in Afghanistan. So statistics, 
in a way, are important.
    And there is a need, also, to change the discourse with regards to 
the word communautarisme. Communautarisme is a bad word in France, but 
there should be a way to approach it so that people feel comfortable 
talking about communautarisme.
    Mr. Lake. Thank you. I thought it was a specific question on the 
Roma, but I understand where you're coming from in terms of 
communautarisme, which is a key issue regarding the Roma people.
    One of the typical pieces of information--I'm sure most of you have 
it--is a couple days ago, the French Government had to change one of 
its administrative--I don't know even the word in English; 
``circulaire,'' we call it in French--affidavit, basically, giving some 
instruction from the ministry of interior and take out the word of 
``Roma,'' which was specifically mentioned in that document.
    And as I mentioned earlier, also, the European Union has engaged in 
a legal--in legal action against the French Government on this issue.
    So I'm sure the Ambassador will talk about it when he makes his 
remarks or will certainly take some more of your questions. So I'm 
really pleased to have Ambassador Pierre Vimont take the floor now. 
Ambassador. [Applause.]
    Amb. Vimont. Thank you, Mr. Lake, and thank you for your very kind 
engagement to speak about the Roma community. [Laughter.] I will, I 
will. But before that, I would just like to say one or two words about 
what I've heard up to now because I think it was--I'm telling it really 
candidly and frankly and sincerely. I think it was a very interesting 
debate.
    Typically, the kind of debate that we have to have on such 
difficult issues as the whole question of discrimination try to avoid 
heated exchanges or controversy as we can see here and there. And in 
other words, try to keep our nerves and try to understand, really, what 
it's all about.
    My second observation--and I would go totally in agreement with 
what Marilyn Sephocle just said--this is also a question of culture, 
very much so. I totally agree with you. There is something always a bit 
surprising when you hear that, in France, if you would like to have 
statistics, figures, legal figures about community, this is not 
allowed; this is illegal. And we cannot go along that. But this goes 
back to a long culture, precisely of what--as you said very rightly 
sir--what is in our--in the meaning and in our--in the way we think 
about our republic, what is at the heart of the French nation and what 
France is all about.
    We're moving along that way. What has been said about quotas slowly 
creeping in here and there and in our legislation, mostly for disabled, 
for women and some other people. This is slowly moving. Again, what has 
been done, for instance, in the field of education with the institute 
of political science, which is a little step, I think, in the right 
direction.
    The whole question, I think, is twofold--is, how far can we go and 
move slowly French society and French mindsets into the right 
direction? It takes time. It's a long-term process. And maybe we're 
quite impatient, quite often in France, but I think this is really what 
it's all about.
    And the second point, I think, which relates to also another great 
characteristic of our country and that's why I was very interested in 
what was said to us about L'Oreal is that, usually, in France, 
everybody hopes that the state will do everything, that the government 
is going to do everything.
    The government can do what was precisely said a few minutes ago: 
can put the framework, the legislative framework. But then it is also a 
question of the responsibility for each and every one of the French 
citizens to make the whole thing move in the right direction. Once 
again, it's a long process, but I hope and I'm quite definite--I'm 
quite sure about it that we're heading in the right direction.
    Just to give one example which always impresses me very much in 
France. At one point, we had those difficult situations in the suburbs 
and people had the impression that we were going to see more and more 
difficulty and tension between what one could call the Muslim community 
and the rest of the society.
    And to the surprise, I think, of many people and many observers in 
France, things have not gone in the bad--in the worst direction--for 
many reasons. But one of them is that the marriage between the 
different communities is growing. The number is growing, which I think 
is a healthy sign of the French society.
    I think another feature of the French is they always like to 
criticize their own country. We're champions in that field. Let's look, 
of course, at the glass as half empty, but let's look also, from time 
to time, at when it is half filled.
    Now, to the Roma community, if you allow me. [Laughter.] Here 
again, let's try to avoid heated exchanges as we have seen maybe and 
heard in recent days.
    A few facts to try to help everybody to understand: First of all, 
in legal term, there's nothing--there is nothing as such as Roma 
community. There's nothing in legal terms as Roma citizen. Those people 
are citizens, quite often, from European countries--Romania and 
Bulgaria, for most of them--and they must be treated as such from a 
legal point of view.
    Second, there is nothing like any kind of collective action against 
this so-called community. We're not targeting that so-called community 
because we're not allowed, by law. Not only French law, but European 
conventions. The Charter of Fundamental Human Rights that we have 
signed and ratified; the Convention of the European Council; French 
law, also, are forbidding any kind of collective expulsion. So it is 
not this problem that we're facing.
    What we're facing is the question of taking measures against 
individual citizens from, as I was saying, mostly European countries 
that are creating a problem related mostly to public order or to other 
questions that have to do with sometimes with trafficking here and 
there, robbery, et cetera and that we have to deal with that. And we 
have to do it under our legislation and under the very strong 
constraint of great--very strong legal oversight and judicial 
oversight.
    And I'm very, to some extent, not totally surprised, but very much 
interested that, as we've seen a lot of reports on what has been going 
on recently in my country, I haven't read anywhere that recently about 
some of those individual measures that have been taken--administrative 
courts in France have canceled.
    It has been recently the case of two courts that have just canceled 
measures that have been taken there because every one of those European 
citizens have the right to go to the French courts and ask for the 
cancellation of those measures. And this is watched very carefully by 
our courts.
    Last, another point, what we're doing, quite often, to help those 
so-called Roma members of the--Roma community to return home, we allow 
for--not insignificant allocations, financial allocations for them to 
go back home and to even reinsert themselves in their society. 
Something like $400 to go back home and sometimes more than $5,000, 
even more, to start a business or to set up their home when they go 
back there.
    And what was very interesting recently when two members of the 
French Government went to Romania and tried to see how we could try to 
cope with the whole issue, our--their Romanian counterparts told them, 
it's not surprising that so many of our citizens come to your country 
because you're giving them great facilities in financial terms. So you 
should maybe think a little more about what you're doing. So you see, 
now, I think it is a little bit more complicated than what is usually 
said, I think.
    And I would like to stop there because I hope the discussion can go 
on whether I am here or not, but I think what is really interesting is 
that we're facing, in fact, a major problem. The so-called Roma 
represent today 9 million citizens all around Europe with great 
difficulty of integration in their own national societies, whether it 
be Romania, Bulgaria or other country.
    Every country to which they are going, circulating, around Europe 
is facing exactly the same problem as France. Not only Europe, by the 
way. Canada has recently decided to set up, again, the obligation of 
visas for people coming from that community, which means that everybody 
is facing that problem.
    And the main problem I think we all have to face in a responsible 
way is, how can we help that community through financial means, through 
every kind of possible assistance? How do we help those people, at 
last, to settle peacefully and with a real significant degree of 
stability; to insert themselves and to integrate the society to which 
they belong? And I think that's the most important. This is where we 
have to keep on discussing with the European Commission and our 
European partners.
    Let's be honest. France set up a conference when she had--when 
France had the Presidency of the European Union in 2008 about that 
issue. Many of our partners didn't show great interest into it. Spain 
did it again during the first half of this year--also set up a 
conference to discuss more about the whole issue about the Roma 
community. Nobody paid much attention to it. So I think we really have, 
all together, to be much more aware of the kind of issue we're facing 
there and to try to find a solution all together.
    I'll stop here. I've been quite too long and I apologize. But Mr. 
Lake, it's all back to you.
    Mr. Lake. Thank you very much, Ambassador Vimont. I understand that 
you are willing to take maybe a couple of questions. I know you have 
about 5 more minutes. Is it OK? All right, OK. So I will suggest that 
rather than making comments because we don't really have a lot of 
time--the Ambassador has just 5 minutes, so we'll just take questions 
and a few questions to the Ambassador before he leaves. Sir? Please 
introduce yourself, please.
    Dr. Blakely. I'm Allison Blakely. I'm a Professor of European 
History at Boston University and I'm engaged in research on a history 
of Blacks in European history, primarily.
    Mr. Ambassador, I'd like to first thank you for participating in 
this discussion. My question is very simple. I think you are correct in 
assuming that many of us do see the policy that's being pursued 
concerning the Roma as directed against a group and not individuals. 
I'm just wondering, is it your impression that the majority of the 
French public also sees this as directed against individuals and not 
against the gypsies and the Roma?
    Amb. Vimont. I would say it very much depends where you live. 
[Laughter.] You know, for a lot of French citizens who live in small 
towns and who have, in the suburbs of that town or that village, 
representatives from the Roma community stationed there, usually in an 
illegal position on grounds that can be either public or private, for 
those people, it seems that something is wrong there and that we should 
take the necessary measure against that group.
    But for, I think, many other citizens who live far away from that 
reality, I think they are more of the opinion that we're talking about 
individuals. And I think that this is the whole problem that we're 
facing with discrimination in general terms.
    It depends very much on the kind of awareness that you have to that 
issue: whether you see it in a rather abstract way and you're able to 
look at the different concepts and to see how you can try to solve that 
issue in a responsible way, and people who are living in a very much 
more practical way with that kind of issue and facing it day to day.
    Dr. Blakely. Thank you.
    Mr. Lake. Yeah, one of the privileges of being moderator is you ask 
people to only ask a question and you don't do that, which is what I'm 
going to do just right now just to echo what the Ambassador said.
    I was very surprised; I read this very good French newspaper, 
Courrier International, and there is a poll in Italy where 80 percent 
of the Italians asked for the expulsion of the Roma people. And 90 
percent of them are Italian themselves. That just shows kind of the 
complexity of that issue in Europe. I know that the gentleman next to 
the professor would like to ask a question, too.
    Mr. Khan. Thank you. My name is Suhail Khan and I'm a Senior Fellow 
with the Institute for Global Engagement, a religious freedom think 
tank. And so my question is regarding religious freedom in France and 
the move to ban crosses, yarmulkes and headscarves for women.
    I know that there are some who see that as something as a 
liberation for some, but of course, as Americans, we see it as a 
religious expression and freedom of expression. What is the status of 
that issue right now in France? Is there any possibility for change or 
reform?
    Mr. Lake. Ambassador, just before you answer, maybe we can take 
another question just because I'm looking at the time--I understand 
you're very tight on time--and so that somebody else wanted to ask a 
question somewhere here. No? OK. I'm sorry. So Ambassador, please.
    Amb. Vimont. Your question is a very interesting question and so 
I'm not saying that usually because I'm embarrassed by it but because I 
think you are at the heart of, really, the difference of culture 
between our two countries.
    I think we both start from the same point, freedom of religion or 
freedom of speech, even, to a large extent. And we go exactly to 
contradictory conclusions. Just to give you one example before coming 
back to your point about the freedom of speech, in France, there would 
not have been any difficulties starting from the same principle of the 
freedom of speech, to stop that strange preacher from Florida who 
wanted to burn the Quran. We have everything in our French legislation 
that allows the government to stop him before he goes ahead, if only 
because his speech could create public disorder. And because of that, 
you have the right in France under clear legal framework to do 
something, which is totally different from yours.
    With regard to the freedom of religion, I don't think there is much 
hope for the time being, at least, that we will change that legislation 
on scarves because in fact, everybody thought that, that would create a 
lot of tension and it will be very difficult to implement that 
legislation.
    And to be honest, this has not gone too badly so far in France. 
Everybody has thought that. After all, it has been done in a very 
practical way. In schools, some schools, where they had some 
difficulty, they have tried to see how they could cope with it. But at 
the end of it, looking after a few years of the implementation of that 
legislation, people feel--and people who are in charge of managing our 
school system who didn't know how to behave with regard to that issue 
have found a clear path on which they can work. And I think this has 
not been too bad so far.
    But once again, I agree with you. Seen from an American point of 
view, this looks like a kind of infringement of the freedom of 
religion. We see it as the possibility for everybody to live together 
in good coexistence, with the idea that the separation between church 
and state is really implemented at what we consider as mostly, before 
everything else, as secular society.
    With regard to the burqa, I think--because I know that some of you 
would like to ask a question, I think this is a different issue, if 
only because from a religious point of view. And many of the Muslim 
leaders we have been able to talk to about the burqa do not consider 
the burqa as part of the precepts of their religion. It's something 
else. It's a tradition that exists in some areas of the Muslim world, 
but this is not a religious habit or even rule. And therefore, this is 
something quite different.
    And it will be very interesting to watch how reaction appears in 
the Muslim countries now that that legislation has been adopted now by 
our two houses.
    And mind you, we still have to go through, now, the constitutional 
court that will have to say also its opinion about this. But it'll be 
very interesting to watch and observe the kind of reactions you will 
get in Muslim countries. And we'll see.
    Mr. Lake. Thank you very much, Ambassador. I promised your staff 
that you will be leaving at 12:30. It's 2 minutes past 12:30--
[laughter]--so thank you very much for your time. [Laughter, applause.]
    OK, so I know there were more questions and comments on the 
discussion, including on the--some on the statement made by the 
Ambassador. So the audience is welcome to intervene. I know Khalid, you 
wanted to say something at one point; I know Alain; also, Rokhaya. But 
if there is--in the public first, maybe a few question or comments. 
Please, Professor.
    Dr. Sephocle. With regards to the banning of religious symbols in 
French culture, in French life, I would take you back probably to the 
history of France. France has a long history of wars of religion, wars 
where the basis was religion, whether we think of the 100 Years' War, 
the 30 Years' War, the 7 Years' War. So these are--this is a long 
process of wars that have been fought in France and where the basis in 
part was religion; in part, or in whole, was religious.
    So France has come to some sort of a modus vivendi where secularism 
is what prevails. And it's very dear to France. And laicite is what 
they have--what the French have come up with. So it's very dear to the 
French, the separation of church and state.
    Mr. Lake. Thank you. Any other comments or questions? Please.
    [Note.--The following remarks are delivered via translator.]
    Ms. Burna. Thank you. Three quick observations. Well, first of all, 
I'm Maria Guiseppina Burna. I'm at the Paris-Dauphine University and I 
work at another organization, a nonprofit organization that works on 
diversity issues.
    So first of all, we mentioned the impact of diversity on the 
performance of companies. It seems to me that when you're in France and 
when you're turning to companies, well, of course, the economic 
dimension is very important in order to make anything you say credible.
    You want to promote minority and diversity; that's important. But 
you need to do more than that. Diversity needs to go beyond fighting 
discrimination and needs to go to a much larger reflection regarding an 
individual's social, moral performance as well as economic performance 
of the companies. In fact, companies that do not discriminate and that 
embrace difference are in fact more creative. They have far more 
innovation.
    So not discriminating goes well beyond being simply a legal 
obligation. And we've talked about the strong legal framework in France 
to fight discrimination, but diversity is also a very important 
economic driver, provided this diversity is properly managed. So that's 
my first comment related to the comments on discrimination in France.
    So in France, as we've said, we have a lot of--a very strong legal 
framework. But perhaps we are lacking this citizen-awareness and 
awareness on the part of victims to point out that there has been 
discrimination. And so people need to learn how to denounce 
discrimination and to go to the proper authorities in order to do this. 
Being discriminated against is a very strong violence that is committed 
onto individuals.
    And so when we talk about affirmative action in France, of course, 
this goes counterparty to Republican values whereby all citizens are 
equal. And in that manner, France and United States are countries that 
were born out of revolutions, out of fights for emancipation, and thus, 
the notions of freedom and equality are extremely important.
    That being said, diversity measures should not be confused with 
quotas. When you want to measure diversity, you're trying to measure 
discrimination, in fact, and it means having a very objective 
awareness. And here, there are various academic procedures that can be 
used to highlight, to pinpoint this discrimination as well as 
diversity, which is present, but which is often undervalued.
    So three dimensions are very important and so I'd like to thank you 
again for this very interesting, enriching debate and which shows that 
there's certainly good ideas, both in America and France and I think 
it's important that we share those great ideas.
    Mr. Lake. Thank you very much. Monsieur?
    [Note.--The following remarks are delivered via translator.]
    Mr. Monsterleet. I'm a Journalist; Chief Editor of a newspaper from 
Guadeloupe. I'd like to mention two points. We talked a lot about 
politics. We talked a lot about entrepreneurial willingness, but we did 
not talk about the power of the media. But the media, what are they? 
They represent the voters.
    Just a quick example, in my newspaper this morning, we received a 
memo from a deputy political representative in Guadeloupe. And so 
something happened 100 years ago, something that is well-known in 
France. Nobody mentioned this event, though. And so Monsieur--
(inaudible)--is a famous--(inaudible). And when he died, that was 
spoken a lot about. So it's not the same treatment for all topics.
    And so I'm not trying to criticize L'Oreal because L'Oreal has 
certainly made a lot of progress, but I did read an article recently, 
and the article talked about that famous glass ceiling. Indeed, 
L'Oreal's policy--external policy--is fairly realistic in terms of a 
corporate policy. For example, in the United States, there are more 
Black people, and L'Oreal is putting a lot of Black people in the 
company because that's an economic advantage; whereas in France, that 
is not the same situation. And so here, we have the blue, White and red 
code--bleu, blanc, rouge--whereby people were recruited, basically, on 
their physical appearance. And so now, that has been exposed. And so 
I'm very pleased to hear that L'Oreal, now, has a much more adapted and 
inclusive policy.
    Finally, to conclude, I just wanted to say you have laws but not 
all laws are applied. And there are a lot of populist strategies that 
are used toward voters.
    Mr. Lake. Thank you. I guess I'd allow Jackie to maybe react to 
that if you want to. You don't have to. If not, we can move to another 
question. Jackie?
    Ms. Celestin-Andre. I'm not quite sure if I understood all your 
comments regarding L'Oreal, but just to put the facts straight. Why 
don't I say it in French?
    [Note.--The following remarks are delivered via translator.]
    Ms. Celestin-Andre. It's really important in terms of what you said 
regarding discrimination. Well, we need to be very concise and precise 
in terms of what has happened. In fact, L'Oreal was denounced but 
that's because we're L'Oreal. But L'Oreal was not the culprit behind 
that situation.
    First of all, we were not talking about recruitment in terms of the 
recruitment of managers. The situation occurred with a recruitment 
agency for hostesses for an in-store event. Thus, L'Oreal had not 
provided any recommendations whatsoever regarding the recruitment of a 
very specific profile. That did not come from us. It came from the 
recruitment agency. That being said, L'Oreal was criticized and blamed 
for the situation simply because we are L'Oreal. But that was not the 
actual situation. You need to get the facts straight.
    But for example, in this particular situation, we were quite 
surprised, but we remained firmly convinced that our history, our 
background, is that we do not discriminate in terms of recruitment. Our 
aim is to move things forward and to move forward in a very proactive 
manner. And we wish to contribute to the progress of nondiscrimination 
and thus, L'Oreal remains clearly devoted to this aim and to promote 
the equal access for French citizens and citizens worldwide.
    Mr. Lake. Thank you. I think we all heard your comments. We give a 
chance to answer because her organization was directly question in your 
comments. So I suggest that we move on. We have only 4 minutes. I know 
a lot of the members of the panel want to speak, but I suggest we give 
them the last couple minutes and maybe take a couple other questions. 
Please.
    [Note.--The following remarks are delivered via translator.]
    Ms. Louisa. Hello. I'll be speaking in French and I apologize for 
that. I'm Louisa--(inaudible). I identify myself as Franco-Algerian. I 
live in France. I own a company and I'm also Chairman of an 
organization that promotes diversity in the workplace. To go back to 
the metaphor of the half-empty glass, I would like to provide the 
following reminder.
    It's good to delegate power, but you also need to take power, to 
seize power. For example, we have migrant entrepreneurship--that's what 
it's called in French. It's a real strength and there are many company 
directors in France that come from all areas of diversity. For example, 
15 percent of currently created companies are created from--via 
minorities.
    Therefore, in France, minorities have a real economic power. 
However, we are not well organized as you are in caucuses. However, in 
terms of statistics and in terms of numbers, it exists and the momentum 
is increasing, and there is economic power that is held by the 
minorities in France and I wanted to underscore that point.
    Mr. Lake. Thank you, thank you very much.
    Mr. Rheault. Thank you. My name is Magali Rheault. I'm with the 
Gallup Center for Muslim Studies. This morning, we touched a lot on 
basically the diversity from a racial and ethnic standpoint. The focus 
of my research is more along the lines of religious diversity. This is, 
of course, a very, very challenging topic to discuss in a French 
context.
    I am from France originally. I've lived in the United States for 
many, many years, and I do travel to France to brief policymakers and 
opinion leaders on this research. But I think it is a very, very 
important dimension that needs to be included in the debate on 
diversity in France and the challenges that many people--we can't even 
really use the word community in the French context.
    But basically, one of the key findings from our research is that 
French Muslims feel French but the French don't embrace them as being 
part of the fabric of France. And this is something that we have a ton 
of research that I would be happy to be share with, you know, anybody 
who is interested in because it is a very important dimension in the 
diversity debate in France. Thank you.
    Mr. Lake. Thank you very much for sharing that. And I'm sure at the 
end of the conversation, a lot of people are going to come directly to 
you. So now, if there is not maybe a very last question before the 
panel can close? Please.
    [Note.--The following remarks are delivered via translator.]
    Mr. Coulant. Hello. I'm Jean-Paul Coulant. I am in charge of 
academic relations in Washington. I'd like to emphasize two points. 
There was a Pew Center survey that demonstrated that France is a 
country in which minorities are best perceived by the local 
populations. For example, of all the countries in Europe, France has 
the best perception of Jewish people.
    And I would like to go back to that notion of freedom of religion. 
I come from a so-called invisible minority. I am White but I am also 
Protestant. And in fact, in 1905, in France, we had the law on 
secularism where you have a separation of church and state but the 
church in question was the Catholic Church. And when this occurred, it 
triggered a civil war. A lot of people--a lot of army officers 
resigned. There was a lot of civil disobedience, there were a lot of 
riots and that's because French Catholics could not bear the idea, the 
thought, that the French state was no longer going to represent the 
Catholic state.
    There's an old slogan in France--Catholic and French. And so one of 
the main blocks in today's society, today's French society--and this is 
something that I really feel as a Frenchman--there's a fear that there 
will be a new civil war centered around Islam. To simplify what I'm 
saying: In fact, we already have a long history. We've already paid for 
that history and we don't wish to start over again with that same 
history.
    And so secularism in France applies also to Catholics. And so for 
example, a fervent Catholic who works in the French educational system 
needs to really integrate himself or herself into his or her working 
environment and needs to accept certain restrictions. So that's just my 
personal opinion. It is not the Embassy's opinion, but it's an opinion 
of a historian, which is what I am.
    Mr. Lake. Yeah, so we literally have, what, minus 3 minutes, I 
should say? [Laughter.] So we're going to take, really, 30 seconds for 
each of the panelists who want to make a last comment. And I'm going to 
turn over the mic to Mischa Thompson from the Helsinki Commission. 
Rokhaya?
    [Note.--The following remarks are delivered via translator.]
    Ms. Diallo. I wanted to respond to this notion of the power of the 
media. There's a real disconnect between the media and political 
action. There's been a lot of talk about the problem about the Roma but 
it was actually triggered by an event that happened in France. There 
were some travelers who destroyed a police station in France. And so 
the ministry of the interior reacted by lumping together all of the 
Romas and demanding their expulsion. And so what happens systematically 
is that politicians use events in order to react.
    Another thing that happened, President Sarkozy is contemplating 
taking French nationality from minorities. So for example--and this is 
because a young North African man had pointed a weapon at a policeman. 
And based on this event, the French President decided that there are 
real Frenchmen that would be punished by existing sanctions whereas 
there are other French people whose nationality could be removed, as if 
this French nationality was conditional.
    And I think it's very important to emphasize this: Politicians use 
this hidden racism as a political weapon. You know, the Front national, 
extreme right group, has also reached a second round of elections in 
France. And this is an important fact that we need to keep in mind.
    We've talked about the various veils. You know, 2004, no veils in 
schools. And now, another law: You cannot wear full veil even in 
streets in France. And this was something that was really--had a lot of 
media coverage. And in fact, in 2004, there was only about 100 women 
who wore veils in school, yet this was the front page on French 
newspapers for months.
    And yet again, there are certain events that are showcased in the 
French media whereas most people in France are not confronted with 
women wearing veils. And so we need to keep in mind the fact that 
there's a perception that is really nurtured by politicians as well as 
by the media.
    And the reason that there's a lot of emphasis on the Roma 
population is that because there's a politician in France who needs to 
distract attention from certain topics. And media have a real 
responsibility in terms of their representation of minorities. In fact, 
minorities are overrepresented when they take part in negative news 
events.
    Mr. Lake. Thank you very much, Rokhaya. Alain?
    [Note.--The following remarks are delivered via translator.]
    Mr. Dolium. Yes, thank you. I'd like to go back to what was said. 
And I agree with what--much of what Rokhaya has said. In fact, when I 
was talking about the current situation in France and the three drivers 
that we really need to use in order to move things forward and to 
really have a true multicultural and postcolonial society, well, I 
emphasized this idea that we need to have a new political class. But 
I'd like to go even beyond that. We need to have a creative class.
    We need to have people who can rethink French society in a real 
breakthrough manner. And they need to be able to make these measures 
tangible. Among other facts, if I limit myself to that creative class 
and that political class, well, I believe that a political class in 
France--to which I belong--needs to stop having an approach that 
focuses on events, on news events. It's like a judge that enables 
politicians to create cleavage.
    But we don't need segmentation; we don't need cleavage. On the 
contrary, we need national unity in order to build a society that is 
more balanced, more just. Because in France, we certainly need to move 
our debates and we need to stop focusing on media events, news items 
and trivial events.
    Mr. Lake. Thank you very much, Alain. Khalid?
    [Note.--The following remarks are delivered via translator.]
    Mr. Hamdani. I, of course, agree with much has been said by my 
colleagues. And of course, with Islam, people need to stop believing 
that Islam is a foreign body, a foreign culture in France.
    Let us remember that the first two Crusades were not initiated by 
the British. The French decided that they needed to build their idea by 
recovering the St. Sepulchre. And so French culture is largely imbued 
with Islamic culture. I'm not going to provide a complete reminder of 
all those historical moments, but Islam and France have been--of 
course, had difficult relations for a long time, but they are linked.
    However, you know, in France--France is extremely Catholic and 
something that's, particularly to with nonbelievers, you have atheist, 
Republican French people are in fact profoundly Catholic. You know, 
they confess continuously and they refuse to accept their acts, to take 
responsibility for their acts.
    And now, to go back to the law of 1905, well, it put end to a war 
that had been started by republic that was called truant, but I don't 
think we need to go back to historical events. Clearly, Islam is not a 
threat to civil peace in France. On the contrary, Islam contributes to 
pacifying relations, you know.
    The mixed marriages have been emphasized. That's important. And 
what is most difficult, to go back to the Roma situation, is the fact 
that people are evicted and then they come back. And so this is a legal 
detour that is quite difficult to understand. So legal experts 
understand all these matters.
    But to go back to the Roma, what is most unbearable for me, of 
course, is significant funds are being given to Bulgaria and Romania, 
but these funds are not used properly. What's most unbearable for me is 
that during World War II--and this is not--I'm not trying to make a 
funny comment here. During World War II, the Roma, the gypsies were 
evicted. And so I find it unbearable and I really emphasize that term--
unbearable. It is quite ``unbearable'' for me to see how they are being 
treated yet again. They were sent to extermination camps. And so based 
on that historical fact, it is inadmissible for this matter to be taken 
lightly.
    Of course, I find it very annoying when they come and wash my car 
against my consent, but that's not the important fact, you know? Our 
everyday comfort--I apologize; I am being very passionate about this, 
but I feel strongly about this. You know, Romas and gypsies have 
already been exterminated and evicted by Nazi Germany and so we really 
need to make sure that we do not go back to that horrible imagery for 
those people. [Applause.]
    Mr. Lake. Thank you. Jackie?
    Ms. Celestin-Andre. So my closing remarks are simple. It's that as 
a company, we will continue to work on making our L'Oreal in France 
increasingly more diverse, with more diverse talent, people coming from 
different backgrounds.
    Because we know after having done a study on the link between 
diversity and performance--we've done the first study in France, and 
probably the first one in Europe, where we've been able to conclude on 
not just social basis, but on an economic basis that for example, when 
you have a team that's a better mix of men and women in a team versus a 
team that's just men for example, the team that's mixed with women is 
extremely more productive than just having just the male team.
    We know that when we have people of disabilities working in a team, 
it's extremely difficult for a colleague who has a headache to say, I'm 
not coming in to the office today. That person will come in because 
they see that the colleague who has a disability is coming in.
    And so we have more and more facts and figures based on economics 
because at the end of the day, for a company like L'Oreal and maybe 
just for the society as a whole, sometimes--it sounds a bit cruel but 
it comes down to dollars and cents. And so we will continue to enrich 
ourselves with talent and promote that talent because it does bring 
value to the company. And as a whole, it will bring value to the 
society.
    Personally, this is my personal point of view, I don't think--
personally think--we will be able to get rid of discrimination. It's 
inherent for years--I mean, centuries. I think the goal is to make sure 
that in the environment that we are in that we can keep our thoughts, 
our behaviors that are discriminatory outside. And while we're working 
and we're working together that we can go through a common goal--for 
common goal, and that, basically, the focus is going forward and trying 
to work collectively.
    At the end, if it helps society, that's great. And I think that's 
the bottom line. It would be great. But we need to move forward and 
work collectively.
    Mr. Lake. Wonderful. Thank you, Jackie; 45 seconds, Kag. You have 
the floor. [Laughter.] Kag, please, go ahead.
    [Note.--The following remarks are delivered via translator.]
    Mr. Sanoussi. I'm going to be brief. First of all, in terms of 
employment, it's a fundamental issue in terms of diversity. When you 
have a job, you have personal stability, you can integrate; you can 
insert yourself. And so being employed is extremely important. And 
that's why it's so important in France. And so that's why we want 
companies to further commit themselves to that issue.
    Next, we have this notion of commitment. When one commits 
themselves to signing the charter of diversity, we ask you whether or 
not you've done something. And if you haven't done something, then 
you're excluded. And nobody likes to be excluded.
    For example, we did not find that the media were committed enough. 
And they have--we have only 20 media organizations in France that have 
signed the charter. That's very little.
    And so I'd like to conclude by saying that the fight against 
discrimination and the promotion of diversity means not only respecting 
anti-discrimination laws, but it goes well beyond that.
    I'm not going to--for example, it's not going into a--(inaudible)--
and you have people of all different races and origins, men and women. 
But when you look at the organizational chart, what actually happens is 
that you have men who are in management positions, women on the bottom. 
And we need to change that.
    I come from a region in France in which rugby is played a lot. And 
so the haka is the opposite of yakka. And unfortunately, we are often 
yakka. ``Yakka'' means somebody else should do it in French. So 
somebody else should do it. And so I'd like us to do a haka dance 
because when you're in the haka dance, you're part of the melee. You're 
working with others and you're moving forth diversity. [Applause.]
    Mr. Lake. Thank you, Kag. That was a great way to close this panel 
discussion. I just want--I'm sure most of you guys have received this 
note. There is going to be, basically, a prolongation of this 
conversation at Howard University tomorrow, Thursday, at the same time 
that we started today, at 11 a.m. at the Ralph Bunche Center and it's 
going to be a conversation around Blacks in Europe and the political 
process. So I am sure that you guys can continue the conversation 
there.
    I'm going to turn the mic to Mischa Thompson. But also, I would 
like to thank, on your behalf, the Helsinki Commission for organizing 
this very interesting and very lively debate and maybe ask you, maybe, 
a quick applause for the Commission. [Applause.]
    [Whereupon at 1 p.m., the briefing ended.]
 

    



This is an official publication of the
    Commission on Security and
      Cooperation in Europe.

              * * *

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

              * * *

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

              * * *
              
       http://www.csce.gov

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
